No. 19-1370
In the Supreme Court of the United
__________________
KIMBERLEY THAMES,
v.

States

Petitioner,

CITY OF WESTLAND, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

__________________

REPLY BRIEF FOR PETITIONER
__________________
DAVID YERUSHALMI
American Freedom Law Center
2020 Pennsylvania Avenue NW
Suite 189
Washington, D.C. 20006
(646) 262-0500

ROBERT JOSEPH MUISE
Counsel of Record
American Freedom Law Center
P.O. Box 131098
Ann Arbor, Michigan 48113
(734) 635-3756
rmuise@americanfreedomlawcenter.org

PATRICK T. GILLEN
Special Counsel
Thomas More Society
1581 Oakes Boulevard
Naples, FL 34119
(734) 355-3478
Counsel for Petitioner
July 21, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT IN REPLY . . . . . . . . . . . . . . . . . . . . . . 1
I.

Respondents’ Claim that Thames Seeks
Review on the Question of the Mens Rea
Required to Show A True Threat Is
Groundless . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

II.

Respondents’ Claim that a Reasonable
Officer Could Believe there Was Probable
Cause To Arrest Thames Defies Clearly
Established Law and Demonstrates
Confusion in the Lower Courts Concerning
the Proper Application of This Court’s
Controlling Precedent . . . . . . . . . . . . . . . . . . . 2
A. The Sixth Circuit’s Opinion Shows Lower
Courts Are Confused about How To
Distinguish “True Threats” from
Protected Speech . . . . . . . . . . . . . . . . . . . . 3
B. Other Lower Courts Are Also Confused
about How To Distinguish Protected
Speech From True Threats . . . . . . . . . . . . 9

III.

Respondents’ Make No Effort To Defend the
City’s Policy, which Authorizes Arrests
for Uttering “Bomb” outside an Abortion
Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
CASES
Bradenburg v. Ohio,
395 U.S. 444 (1969). . . . . . . . . . . . . . . . . . . . . 7, 10
Hunter v. Bryant,
502 U.S. 224 (1991). . . . . . . . . . . . . . . . . . . . . . . . 8
Imbler v. Pachtman,
424 U.S. 409 (1986). . . . . . . . . . . . . . . . . . . . . . . . 8
N.A.A.C.P. v. Clairborne Hardware Co.,
458 U.S. 886 (1982). . . . . . . . . . . . . . . . . . . . . . . . 7
New York v. Operation Rescue Nat’l,
273 F.3d 184 (2d Cir. 2001) . . . . . . . . . . . 9, 10, 11
Planned Parenthood of Columbia/Williamette, Inc.
v. Am. Coal. of Life Activists,
244 F.3d 1007 (9th Cir. 2001). . . . . . . . . . . . . . . 10
Planned Parenthood of Columbia/ Willamette, Inc.
v. Am. Coal. of Life Activists,
290 F.3d 1058 (9th Cir. 2002) (en banc). . . . . . . 10
United States v. Dillard,
795 F.3d 1191 (10th Cir. 2015). . . . . . . . . . . 10, 11
United States v. Turner,
720 F.3d 411 (2d. Cir. 2013) . . . . . . . . . . . . . . . . 11
Virginia v. Black,
538 U.S. 343 (2003). . . . . . . . . . . . . . 2, 5, 9, 10, 11
W. Va. State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943). . . . . . . . . . . . . . . . . . . . 12, 13

iii
Watts v. U.S.,
394 U.S. 705 (1969). . . . . . . . . . . . . . . 5, 6, 7, 9, 10
CONSTITUTION
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim

1
INTRODUCTION
The Response confirms the need for review by this
Court. It does not address the first question Petitioner
Kimberly Thames presents to this Court, i.e., whether
her speech is protected under clearly established law,
and as a result, the officers who arrested her are not
entitled to qualified immunity. The Response makes
no effort address the second question presented, which
asserts that the municipal policy that authorized her
arrest for “say[ing] anything about bombs near a
facility that performs abortions,” is plainly
unconstitutional. For these reasons, explained further
below, the Court should grant the petition for certiorari
so that it can provide much needed guidance to the
lower courts on issues of pressing importance.
ARGUMENT IN REPLY
Respondents’ eight pages of argument do not
address the actual questions presented by Thames’
petition. About half the argument is devoted to
knocking down a strawman, i.e., the claim that Thames
seeks review regarding the mens rea required for a true
threat. The rest of the Response is devoted to an
abstract discussion of probable cause utterly devoid of
any meaningful engagement with the First
Amendment precedent Thames relies upon as the basis
for her request for review.
Resp. at 22-24.
Respondents do not even address the second question
presented, which concerns a municipal policy
authorizing arrest based on using specific words
outside an abortion clinic. That policy rests upon a
presumption that certain words are a “true threat”

2
completely at odds with this Court’s decision in
Virginia v. Black, 538 U.S. 343 (2003).
I.

Respondents’ Claim that Thames Seeks
Review on the Question of the Mens Rea
Required to Show A True Threat Is
Groundless.

Respondents argue that Thames’ petition should be
denied because she seeks review on the issue of the
mens rea necessary to convict for a true threat. Resp.
at 18-22. But that assertion is groundless. Thames
specifically noted that her petition involved “two
additional and critical issues that are related to, but
distinct from, the questions presented in Kansas v.
Boettger.” Petition at 14 (italics added). Therefore,
Respondents are simply wrong to suggest that Thames
would “bait” this Court to grant review based on a
question not presented by her case.
II.

Respondents’ Claim that a Reasonable
Officer Could Believe there Was Probable
Cause To Arrest Thames Defies Clearly
Established Law and Demonstrates
Confusion in the Lower Courts Concerning
the Proper Application of This Court’s
Controlling Precedent.

Clearly established precedent requires government
officials confronted with claims based on pure speech to
make a threshold determination of whether that speech
is protected by the First Amendment before taking any
action against the speaker. The conflicting decisions of
the district court and Sixth Circuit ignore this
principle. Those decisions also demonstrate confusion

3
about how to draw the line between the vast range of
heated rhetoric that is protected by the First
Amendment, and those words that, when considered in
context, can be classified as a “true threat” that is not
protected by the First Amendment, and therefore, can
provide probable cause for an arrest. Decisions from
other federal circuits show there is pervasive confusion
on this critical line-drawing exercise between protected
speech and “true threats.”
A. The Sixth Circuit’s Opinion Shows
Lower Courts Are Confused about How
To Distinguish “True Threats” from
Protected Speech.
Respondents argue that the court below correctly
determined that Thames’ arrest was a reasonable
mistake. Resp. at 22-24. Here, they rely on the Sixth
Circuit’s observation that the qualified immunity
inquiry turns on “whether the officers’ (even mistaken)
belief that the statements were true threats was
unreasonable.” Resp. at 22. But that general and
abstract observation is worthless. As Thames’ petition
pointed out, the damning problem that produced her
damnable fate is not in the articulation of general
principles but the faithful application of those
principles to specific case involving individuals engaged
in disfavored speech.
The picture below shows the woman held for 49
hours for a terrorists threat because she was accused of
saying something like, “‘I prophesy bombs are going to
fall and they’re going to fall in the near future’ [or] ‘I
prophesy bombs are going to fall and they’re going to
fall on you people’; [or] ‘bombs, bombs on America, and

4
bombs will blow up this building,’” or later, “bombs,
bombs on America, and bombs will blow up this
building.”

Photo of Thames (left) taken from police dash camera
upon arrival at the scene
She threatens to do nothing in the statements
attributed to her, and therefore, the statements are not
“true threats.” At most, the statements are heated
rhetoric cloaked as a “prophesy” of impending doom
that is plainly protected by this Court’s precedent. The
“totality of circumstances” at the scene make any claim
that those statements, when considered in context,
provided probable cause to arrest Thames for uttering

5
a “true threat” is patently absurd—not an objectively
reasonable but mistaken judgment.
The Respondents’ claim that they are entitled to
qualified immunity because they had a reasonable but
mistaken belief she had uttered a “true threat” defies
clearly established law. The probable cause finding
was premised on two conclusions. First, the officers
concluded, as a factual matter, that it was probable
that Thames made the statements attributed to her by
Parsley, the abortion clinic security guard. Second,
they concluded that those statements could qualify as
“a serious expression of an intent to commit an act of
unlawful violence, to a particular individual or group of
individuals.” Va. v. Black, 538 US. 343, 359 (2003).
This second determination, which turns on an
evaluation of speech attributed to Thames under First
Amendment law, violates clearly established law. The
officers who arrested her acted with flagrant disregard
for the bedrock principle this Court emphasized over
fifty years ago: “a statute . . . which makes criminal a
form of pure speech, must be interpreted with the
commands of the First Amendment clearly in mind.
What is a threat must be distinguished from what is
constitutionally protected speech.” Watts v. U.S., 394
U.S. 705, 707 (1969).
As Watts makes clear, this threshold inquiry
requires focus on the words spoken, the actus reus, of
the threat, not the mens rea, requirement. In Watts,
the Court addressed a statute which required that the
threat be made “knowingly and willfully.” Watts, 394
U.S. at 705. Although the judges on the Court of
Appeals had differed over whether this requirement

6
was satisfied, this Court found the issue beside the
point. As this Court put it:
[w]hatever the ‘willfulness requirement implies,
the statute initially requires the Government to
prove a true ‘threat.’ We do not believe the kind
of political hyperbole indulged by the petitioner
fits within that statutory term. For we must
interpret the language . . . against the
background of a profound national commitment
to the principle that debate on public issues
should be uninhibited, robust, and wide open,
and that it may include vehement, caustic, and
sometimes unpleasantly sharp attacks on
government and public officials.
Watts, 394 U.S. at 708 (citations and internal
quotations omitted). Applying these principles, this
Court reversed the conviction for a threat based on the
statement “if they ever make me carry a rifle the first
man I want in my sights is L.B.J.,” Watts, 394 U.S. at
706, because the “offense here was a kind of very crude
offensive method of stating a political opposition to the
President.” Id. at 708 (internal quotations omitted).
In Watts this Court demonstrated that the principle
it relied upon was not limited to political speech. The
decision itself reasoned by analogy to cases decided in
the context of labor disputes, observing that “[t]he
language of the political arena, like the language used
in labor disputes, is often vituperative, abusive, and
inexact.” Id. at 708 (citations omitted). And this
Court’s precedent over the subsequent fifty years has
both solidified the principle and provided more
guidance about the kind of statements that are

7
protected speech, and therefore, cannot provide the
grounds for criminal or civil liability.
In Bradenburg v. Ohio, 395 U.S. 444 (1969), decided
the same year as Watts, this Court reversed a criminal
conviction based on a film of a gathering in which
speakers, some of whom wielded arms, spoke of
“revengence,” by the “Caucasion race” and made
derogatory comments about “the nigger” and “the Jew.”
Despite the loathsome rhetoric, the Court reversed the
conviction because the statute punished “mere
advocacy not distinguished from incitement to
imminent lawless action.” Id. at 448-49.
Over twenty years later, in N.A.A.C.P. v. Clairborne
Hardware Company, 458 U.S. 886 (1982), the Court
applied these same principles to threatening rhetoric
employed to ensure compliance with a boycott against
racial discrimination. In that case, Charles Evers gave
a speech warning, “blacks who traded with white
merchants would be answerable to him.” Id. at 900
n.28, and would “have their necks broken . . . .” id.,
adding, “the Sheriff could not sleep with boycott
violators at night.” Id. at 901. This Court held that
Evers’ comments “did not transcend the bounds of
protected speech set forth in Bradenburg.” Id. at 928.
As this Court put it, “[s]trong and effective
extemporaneous rhetoric cannot be nicely channeled
into dulcet phrases. When appeals do not incite
lawless action, they must be regarded as protected
speech. To rule otherwise would ignore the profound
commitment that debate on public issues should be
uninhibited, robust, and wide-open.” Id. (internal
quotations and citations omitted).

8
This clearly established precedent also shows that
the officers’ unlawful action cannot be justified by the
decision in Hunter v. Bryant, 502 U.S. 224 (1991). In
that decision this Court emphasized that officers had
“trustworthy information that Bryant had written a
letter containing references to an assassination scheme
directed against the President, that Bryan was
cognizant of the President’s whereabouts, [and] that
Bryant had made an oral statement that’[h]e should
have been assassinated in Bonn.’” Id. at 228 (citation
omitted). In contrast, the statement attributed to
Thames is a “prophesy” of bombs falling on America,
including the clinic where she was demonstrating.
Assuming she made the statement, it makes no threat
that she will do anything. No objectively reasonable
officer would think Thames was going to drop “bombs
on America,” “including this clinic.” When the context
captured by the dashcam is taken into account, the
idea that the statement could ever count as a “true
threat” flies in the face of precedent from this Court
going back fifty years.
These are bedrock principles that apply whenever
government officials are called upon to decide whether
pure speech, when considered in context, is protected
speech or punishable as a “true threat” under the First
Amendment. That critical inquiry applies to both
arresting officers and charging prosecutors. Indeed,
the absolute immunity that prosecutors enjoy for
charging decisions, see, Imbler v. Pachtman, 424 U.S.
409 (1986), makes it imperative that officers take this
threshold inquiry seriously in order to avoid the
palpable injustice that Thames suffered here: 49 hours
in jail for speech that is plainly protected.

9
Under clearly established law, the officers who
arrested Thames were obliged to interpret Michigan’s
terrorist threat statute “with the commands of the
First Amendment clearly in mind,” see, Watts 394 at
707, and assess whether the speech was protected
rhetoric, even if disturbing, or “a serious expression of
an intent to commit an act of unlawful violence, to a
particular individual or group of individuals.” Black,
538 U.S. at 359. They completely failed to make this
threshold—and constitutionally required—
determination. Instead, they arrested Thames for pure
speech protected by fifty-years of clearly established
First Amendment precedent. The Sixth Circuit held
that this patently unlawful arrest was a “reasonable
mistake,” a conclusion that reflects profound confusion
about the proper application of this Court’s First
Amendment jurisprudence.
B. Other Lower Courts Are Also Confused
about How To Distinguish Protected
Speech From True Threats.
As Thames has pointed out, the Sixth Circuit is not
alone in its confusion about the line between protected
speech and “true threats.” In New York ex. rel Spitzer
v. Operation Rescue National, 273 F.3d 184 (2d Cir.
2001), the Second Circuit held that a woman who told
a doctor performing abortions that “killing babies was
no different than killing doctors,” id. at 196, was
“strong rhetoric” but emphasized that “the statement
(even in context) did not suggest that [the speaker] was
engaged in a plan to harm the clinic doctor.” Id. at 19697 (brackets supplied). It held that the speech was
“not a direct or even veiled threat, but an expression of

10
a political opinion…entitled to First Amendment
protection.” Id. at 197.
The rub here is that in Operation Rescue National,
the court relied heavily upon the Ninth Circuit panel
decision in Planned Parenthood of Columbia/
Williamette, Inc. v. American Coalition of Life Activists,
244 F.3d 1007 (9th Cir. 2001). In that case, a panel of
the Ninth Circuit held that a group which unveiled a
“Deadly Dozen” poster and “Nuremberg Files” about
doctors performing abortions were protected under
Watts and Brandenburg not true threats. But that
panel decision was overruled by an en banc decision
finding these were “true threats,” with five judges
dissenting on the ground that the speech was
protected. See Planned Parenthood of Columbia/
Willamette, Inc. v. American Coalition of Life Activists,
290 F.3d 1058 (9th Cir. 2002) (en banc).
As Thames has pointed out, Judge Baldock’s dissent
in United States v. Dillard, 795 F.3d 1191 (10th Cir.
2015), likewise goes to show the confusion about the
line between words that while threatening are
nevertheless protected speech and “true threats.” That
case also arose in the abortion context and concerned
whether the statement if a doctor opened a clinic
providing abortions she would be “checking under [her]
car everyday—because maybe today is the day someone
places an explosive under it,” was punishable under the
First Amendment. Id. at 1196. The majority, relying
on the Ninth Circuit’s en banc opinion in Planned
Parenthood of Columbia/Willamette, Inc. and this
Court’s decision in Black, held that statement could be
a threat. Dillard, 795 U.S. at 1199. It rejected the

11
Second Circuit’s decision in Operation Rescue National
based on the Circuit’s subsequent decision in United
States v. Turner, 720 F.3d 411 (2d. Cir. 2013), which
dismissed the part of the decision in Operation Rescue
National that focused on imminence as dicta. Dillard,
795 F.3d at 1200. Judge Baldock dissented reasoning
that the statement was conditional, non-imminent, and
impersonal, and as a result, was protected speech not
a “true threat.” Id. at 1207.
These cases show that the Sixth Circuit is not alone
in its inability to distinguish heated and intimidating
language that, while disturbing to its listener, remains
protected by the First Amendment from statements
that qualify as “true threats.” They also show the costs
this uncertainty imposes on citizens—arrests,
injunctions, and threats of criminal and civil liability
that chill First Amendment expression.
III.

Respondents’ Make No Effort To Defend
the City’s Policy, which Authorizes Arrests
for Uttering “Bomb” outside an Abortion
Center.

Respondents make no effort to defend the municipal
policy that was a “moving force” in Thames’s arrest,
more specifically, the policy that “you can’t say
anything about bombs near a facility that performs
abortions.” This policy “ignores all of the contextual
factors that are necessary to decide whether” the
speech “is intended to intimidate.” Black, 538 U.S. at
367. It is unconstitutional because “[t]he First
Amendment does not permit such a shortcut.” Id.

12
CONCLUSION
By way of conclusion, Thames acknowledges that
law enforcement is a difficult job, and officers are
entitled to make reasonable mistakes. Yet there are
limits to qualified immunity. She respectfully submits
that the current outcry over the very legitimacy of
qualified immunity shows that this Court must enforce
those limits. Doing so protects citizens who seek to
lawfully exercise their rights. Doing so promotes the
integrity of law enforcement, an essential and
honorable profession, and thereby protects its
legimitacy. Doing so also ensures appropriate
accountability for officers who engage in the sort of
patently unlawful actions that produced Thames’
unlawful arrest and 49-hour detention.
It is sad to say but nonetheless true that every age
has its orthodoxies, and in every age dissenters are
persecuted. It is good to know that in the long course
of this great nation’s history, this Court has repeatedly
protected dissenters by applying the principle that “[i]f
there is any fixed star in our constitutional
constellation, it is that no official, high or petty can
prescribe what shall be orthodox, in politics,
nationalism, or other matters of opinion . . . .” W. Va.
State Bd. of Educ. v. Barnette, 319 U.S. 624 (1943).
The First Amendment needs breathing space and that
means freedom from arrest for pure speech protected
under this Court’s precedent—not just relief from
unlawful prosecutions, which comes too late, after
speakers have been silenced and too much anguish
endured.

13
Thames respectfully submits that her case as well
as those she has cited show that there is confusion in
the lower courts, which have rendered decisions that
defy the overarching principle articulated in Barnette,
and allowed individuals to be arrested or penalized for
pure speech that is protected under clearly established
law. She presents questions about the protection the
First Amendment provides to citizens engaged in pure
speech in a traditional public forum. Accordingly,
Thames urges this Court to grant review and provide
answers to questions that go to the very heart of the
First Amendment.

14
Respectfully submitted,
ROBERT JOSEPH MUISE
Counsel of Record
American Freedom Law Center
P.O. Box 131098
Ann Arbor, Michigan 48113
(734) 635-3756
rmuise@americanfreedomlawcenter.org
DAVID YERUSHALMI
American Freedom Law Center
2020 Pennsylvania Avenue NW
Suite 189
Washington, D.C. 20006
(646) 262-0500
PATRICK T. GILLEN
Special Counsel
Thomas More Society
1581 Oakes Boulevard
Naples, FL 34119
(734) 355-3478
Counsel for Petitioner

